LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 13, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

SHAWNTELE CORTEZ JACKSON V. KATHY LITTERAL

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on November 13, 2019, I caused service to be made pursuant
to Rule 29 on the following counsel for the Respondent:
RESPONDENT:
Gregory C. Fuchs
Office of the Attorney General
Office of Criminal Appeals
1024 Capital Center Drive, Ste 200
Frankfort, KY 40601
502-696-5342
Greg.fuchs@ky.gov
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

